                                    NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230
                                                                                   s.
                                                                      Case Closeout-




                                                -
         OFFICE OF
    INSPECTOR GENERAL




    MEMORANDUM


    Date:                   August 5, 1999

    To:

.   From:                                                          ral for Investigations

    Re:                   ,lrLase   Closeout-


    Background
                    .kt
                    pf



    We received an allegation that                  of Duke University was being
    reimbursed for duplicate travel expenses by his NSF grant and by the Department of
    commerce.


    Investigation

    We requested all travel vouchers and source documentation from Duke University for all
    travel costs incurred for NSF award DEB                       5, 1999, we met with
    Department of Commerce Special Agent                       d reviewed these documents.



    Our review of these documents revealed no duplicate reimbursement for travel. This case
    is closed.
